              UNITED STATES DEPARTMENT OF EDUCATION
                           OFFICE OF INSPECTOR GENERAL
                              61 FORSYTH STREET, Room 18T71
                               ATLANTA, GEORGIA 30303




MEMORANDUM

TO:            Jack Higgins, Acting Inspector General
               Steve McNamara, Acting Deputy Inspector General
               Robert Seabrooks, Acting Assistant Inspector General for Audit
               Diane Van Riper, Assistant Inspector General for Investigations
               Hugh Monaghan, Assistant Inspector General for Operation - East
               Patrick Howard, A&A Branch Chief, Student Financial Aid Programs
               Howard Franklin, A&A, Student Financial Aid Programs

FROM:          Carol S. Lynch
               Regional Inspector General for Audit

SUBJECT:       FINAL AUDIT REPORT
               Review of the Federal Perkins Loan Program at Clark Atlanta University, Atlanta,
               Georgia
               Audit Control Number: 04-80006




Attached is the above subject final audit report and related correspondence.



Attachment
                 Review of the Federal Perkins Loan Program
                         at Clark Atlanta University
                               Atlanta, Georgia




                                 FINAL AUDIT REPORT




                                 Audit Control Number 04-80006
                                        December 1998




Our mission is to promote the efficient                          U.S. Department of Education
and effective use of taxpayer dollars                            Office of Inspector General
in support of American education                                 Atlanta, GA
                             NOTICE

Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report, represent the opinions of
 the Office of Inspector General. Determination of corrective action to be
taken will be made by appropriate Department of Education officials. This
 report may be released to members of the press and general public under
                      the Freedom of Information Act.
             UNITED STATES DEPARTMENT OF EDUCATION
                        OFFICE OF INSPECTOR GENERAL
                           61 FORSYTH STREET, Room 18T71
                            ATLANTA, GEORGIA 30303

                                   December 4, 1998

MEMORANDUM


To:          Greg Woods
             Chief Operating Officer
             Office of Student Financial Assistance

                    (Signed)
From:        Carol S. Lynch
             Regional Inspector General for Audit
             Atlanta Office

Subject:     FINAL REPORT
             Review of the Federal Perkins Loan Program at Clark Atlanta University,
             Atlanta, Georgia
             Audit Control Number A04-80006


We have reviewed the Federal Perkins Loan Program at Clark Atlanta University
(CAU). The purpose of our review was to determine whether the Federal Perkins Loan
Program was administered in accordance with applicable Federal laws and regulations.
We focused specifically on determining whether Clark Atlanta University confirmed
student eligibility prior to awarding funds and maintained and disbursed Perkins Loan
funds in accordance with applicable program requirements. This letter presents our
findings and recommendations.

Clark Atlanta University concurred with all of our findings and recommendations. A
copy of Clark Atlanta University’s response is included as the Attachment. Due to
privacy concerns, we have deleted references to student names and social security
numbers.


FINDING NO. 1      IMPROVEMENTS ARE NEEDED IN THE OVERALL
                   MANAGEMENT OF THE PERKINS LOAN FUND BY CLARK
                   ATLANTA UNIVERSITY

CAU did not have formalized policies and procedures for transferring Perkins funds
from the Fund or requesting funds by Federal cash draw down. Although CAU officials
were able to support the total loan awards to students on an annual basis, CAU’s
transfer of funds from the Perkins Loan Fund and draw down of Perkins Federal Capital
Contribution (FCC) was inconsistent and did not always match the amounts credited to
student accounts on a monthly basis. In addition, CAU did not always maintain the
supporting documentation for the transfers and draw downs of Perkins FCC.

The problem was further aggravated because CAU did not deposit the FCC into the
Perkins Loan Fund and the Institutional Capital Contribution (ICC) was not consistently
deposited into the Fund. CAU officials did not deposit the Perkins Loan Fund FCC into
the Perkins Loan Fund bank account during the five award years we reviewed 1994,
1995, 1996, 1997, and 19981. FCC was transferred from the Federal draw down
account directly to the school’s general operating account. In addition, CAU officials
did not consistently deposit the ICC into the Perkins Account during the same period.
In one instance, part of the correct ICC amount was deposited into the account the
award year after it should have been. In several instances CAU deposited more ICC
than was required.

CAU officials told us that once they have a valid signed promissory note, student
accounts are credited with the funds before the school transfers funds or requests a
Perkins FCC draw. We compared the transfers from the Perkins Loan Fund, draw
down of Perkins FCC as reported on the PMS-272, and ICC deposits to the monthly
credits of loan awards to students accounts for three years, 1996, 1997, and 1998 and
found that for two years (1996 and 1997) there was no consistency and an insufficient
audit trail to support the transfers and draw downs of Perkins funds. Transfers and
draws did not always match the amounts credited to student accounts and we were
unable to conclude how the amount of the transfer was determined.

Regulations require that Perkins funds should be used for making loans and other
activities such as transfer to either the Federal Work-Study or Federal Supplemental
Educational Opportunity Grant programs and other administrative requirements as
prescribed in the regulation (34 CFR 674.18(a) & (b)). Although CAU officials were
able to support the total loan awards to students on an annual basis, under the cash
management regulations (34 CFR 668, Subpart K), the institution must disburse funds
no later than three business days following the date the institution received the funds.
In addition, the regulations (34 CFR 674.8(a)) require that the institution shall deposit
into the Fund all Perkins related assets, including FCC and ICC. The ICC is to be
deposited into the Fund either prior to or at the same time it deposits any FCC per 34
CFR 674.19 (c). Also, under 34 CFR 668.24 (b)(2) an institution shall establish and
maintain on a current basis--financial records that reflect each Higher Education Act
(HEA), Title IV program transaction.

CAU officials said that they did not transfer funds or make draw downs until they had
credited students accounts for a sufficient amount of awards, however they did not
always maintain the supporting documentation for the transfers. At the time of our site
visit, CAU officials presented us with policies and procedures which will address when
Perkins Loan Funds are to be disbursed and transferred from the Fund.

RECOMMENDATIONS:



         1
             Our review covered the financial records and student files up to March 1998 when our fieldwork
began.

                                                      4
The Office of Student Financial Assistance should require Clark Atlanta University to:

      1.     Develop a system and implement policies and procedures necessary for
             transferring funds from the Perkins account and requesting Federal draw
             down of Perkins Funds.

      2.     Deposit all Perkins related funds directly into the Perkins Loan Fund as
             required in the regulations.

      3.     Maintain an audit trail and supporting documentation for all transactions
             relating to the Federal Perkins Loan Program.


CAU’s Response:

We concur with the findings and recommendations. The University has carried out
several corrective actions designed to remedy the weaknesses and implement the
recommendations described in the finding. Beyond the recommendations contained in
the report, we have taken steps to improve our cash forecasting procedures. The
combination of written policies and procedures and our improved process for projecting
available resources, has greatly enhanced the audit trail applicable to all Perkins Loan
Fund activity.


FINDING NO. 2       STUDENT FILE MAINTENANCE AND PERKINS LOAN
                    PROCEDURES SHOULD BE IMPROVED

Although the institution has shown progress in the maintenance of student files and
Perkins Loan award documentation, there is still room for improvement. During our
review we found some policies and procedures in place, however these procedures
were not always adequately documented, formalized, and distributed to staff. For
example, some of the existing policies and procedures are what the institution plans to
do in the future and are still under the review of management. In other instances, the
school is using U.S. Department of Education publications (guides, handbooks, and the
federal regulations) as policy without identifying this in writing.

To participate in any of the Title IV, HEA, programs, an institution must demonstrate
capability to adequately administer the program. To demonstrate administrative
capability, the institution should have written policies and procedures indicating the
responsibilities of various offices with respect to the approval, disbursement, and
delivery of Title IV program assistance. A lack of formalized policies and procedures,
and a frequent turnover in staff caused problems in the following areas:


                      Files Contained Inadequate Documentation

#     In one instance, a student financial aid file could not be located. Certain
      necessary records must be maintained in each student’s file according to 34


                                           5
    CFR 668.14 (b) (4) and 34 CFR 668.24.

#   In three instances, the student loans were canceled, however the school did not
    maintain copies of the voided promissory note as required by 34 CFR 674.19 (4)
    (B) (iv). In eight instances, the student financial aid files selected for verification
    did not contain all documents to meet the requirements of 34 CFR 668.56 and
    34 CFR 668.57. Income tax returns were unsigned, conflicting information
    existed between the income tax return and the Student Aid Report, and
    application changes were not resubmitted.

                                     Over award

#   In five instances, money credited to student accounts exceeded the students’
    need. This is prohibited by 34 CFR 673.5 (a).


                                  Student Eligibility

#   In four instances, students did not maintain satisfactory academic progress as
    required by 34 CFR 668.34 and defined by the school. Students received aid
    who either did not meet the minimum grade point average requirement or
    complete the minimum number of hours necessary. In addition, students
    received aid for more than the institution’s ten semester limit.


                          Student Ledger Card Procedures

#   In five instances, reconciliations to close out student ledger cards were not
    performed at year end. This resulted in credit balances which were not resolved
    in a timely manner as required by 34 CFR 668.165.

#   In four instances, loan amounts advanced to students disagreed with the amount
    on the promissory note. Three student ledger cards were credited for less than
    the amount for which the promissory note was signed. Adequate internal controls
    over awarding student financial aid require that once a student has completed
    the approval process for receiving a Perkins loan, disbursement of the loan
    should be made unless the loan is canceled (34 CFR 674 Subpart D). One
    student ledger card was credited for more than the amount for which the
    promissory note was signed. This violates the basic promissory note
    requirements outlined in 34 CFR 674.16.

#   In one instance, the promissory note was voided but an adjustment was not
    made to the student ledger card to reflect this action. This violates basic internal
    control procedures.

#   In nine instances, loans were credited to student accounts prior to the execution
    of a promissory note. The institution attributed this to a posting error, and
    explained that the credit was backed off of the student account and reapplied


                                           6
      after the student signed the promissory note.

In our opinion, the lack of formalized policies and procedures and the frequent turnover
of staff in offices responsible for administering the Federal Perkins Loan Program at
Clark Atlanta University caused the problems with file maintenance and Perkins Loan
procedures. If the institution chooses to use a Departmental policy as its own, this
should be identified in writing. We believe that the development of written policies and
procedures would improve the staff’s understanding of their job responsibilities and the
responsibilities of the various offices responsible for administering the Federal Perkins
Loan Program. This may also help to improve communications between key
departments (i.e., Student Financial Assistance, Grants & Contracts, Accounting,
Student Loans & Collections). We further believe that due to the continuously
changing nature of financial aid issues and the frequent staff turnover that has occurred
at Clark Atlanta University, ongoing staff training would be beneficial to all employees.


RECOMMENDATIONS:

The Office of Student Financial Assistance should require Clark Atlanta University to:

      1.     Develop written policies and procedures relating to the maintenance of
             student files and Perkins Loan procedures that have been approved by
             the appropriate CAU management levels and distributed to all key
             personnel.

      2.     Provide ongoing staff training, education, and development to both new
             and veteran employees.

      3.     In the instances cited, review the student files (numbered student name
             listing with cited deficiencies was previously supplied) and make any
             needed corrections or adjustments. Documentation supporting
             corrections or changes should be provided.




                                           7
CAU’s Response:

The University concurred with the findings and recommendations. The University has
developed and implemented policies and procedures to govern file maintenance and
retention. The policies have been approved by management and distributed to all
appropriate personnel. The University also provided explanations and corrective action
taken for each of the exceptions noted for our file review.




BACKGROUND

Clark Atlanta University is a private, comprehensive, urban, coeducational institution of
higher education. It was formed as a consolidation of two private historically black
institutions ---- Atlanta University and Clark College---- in 1988. The University offers
undergraduate, graduate, and professional degrees as well as non-degree programs.

Clark Atlanta’s student body is made up of approximately 5,000 students of diverse
racial, ethnic, and socioeconomic backgrounds. The University offers various types of
financial assistance through scholarships, grants, low interest loans, and campus work
opportunities. The Financial Aid Program at Clark Atlanta provides assistance to all
admitted students who demonstrate eligibility, based on standardized guidelines.
Between 1994 and 1998, approximately 2500 students were awarded Perkins Loans.

Perkins Loans are low-interest (5 percent), long-term loans made to needy
undergraduate and graduate students to help pay for postsecondary educational costs.
These loans are made through institutional financial aid offices by participating
schools. No interest accrues on a loan while a student is enrolled in an eligible
program at least half time. Clark Atlanta has received Federal Perkins Loan Program
funding since the 1990-1991 school year. For the current year (FY 1998), the U.S.
Department of Education awarded Clark Atlanta University approximately $251,000 to
apply to its Federal Perkins Loan Program revolving fund.


AUDIT SCOPE AND METHODOLOGY

We performed a limited review of the Federal Perkins Loan Program at Clark Atlanta
University. The objective of our review was to determine whether CAU was
administering the Perkins Loan revolving fund in accordance with applicable Federal
laws and regulations. Our review focused specifically on determining whether Clark
Atlanta University: maintained the Federal Perkins Loan revolving fund in accordance
with applicable program requirements; accounted for and expended Perkins Loan funds
in accordance with applicable program requirements; confirmed student’s eligibility
prior to awarding Perkins funds; and disbursed loans in accordance with applicable


                                            8
program requirements. The financial aspects of the Perkins Loan revolving fund were
reviewed for 5 years (1994 - 1998) and a file review covering 3 years (1996 - 1998)
was performed. Our review of 1998 covered the financial records and student files up
to March 1998 when our fieldwork began.

To accomplish our audit objectives, we performed the following:

!      Reviewed applicable Federal regulations;

!      Reviewed Clark Atlanta University’s bank records and other financial records
       pertaining to the Federal Perkins Loan Program;

!      Analyzed the most recent program review conducted by the U.S. Department of
       Education, Office Student Financial Assistance staff, for the 1994-1995, 1995-
       1996, and 1996-1997 award years;

!      Analyzed CAU’s OMB Circular A-133 Independent Auditor’s Reports on the
       Schedule of Federal Awards and Other Financial Assistance for the years ended
       June 30, 1991, 1992, 1995, and 1996, and the Financial Statements and
       Government Auditing Standards Reports for the Year Ended June 30, 1995;

!      Interviewed school officials responsible for administering the Federal Perkins
       Loan Program.

A judgmental sample of student files was selected for our review. The sample included
a total of thirty-one student files (ten student files for the 1995-1996 award year, eleven
student files for the 1996-1997 award year, and ten student files for the 1997-1998
award year).

To achieve our audit objectives we relied on computer-generated data contained in
Clark Atlanta University’s Student Information System and the Perkins Fund
accounting records. Although we did not assess general and application controls at
CAU, we relied on the testing performed by the CPA during the annual financial audit.
Because the annual audit noted problems with the Federal Perkins Loan Program at
CAU, we verified computer-generated student loan information back to individual
student files.

Our field work was performed from March 30, 1998 through May 1, 1998, at Clark
Atlanta University’s campus, in Atlanta, Georgia. A preliminary informal exit conference
took place on May 14, 1998.

Our audit was performed in accordance with the government auditing standards
appropriate to the scope of the review described above.


STATEMENT ON MANAGEMENT CONTROLS

We did not review the management control structure of Clark Atlanta University. We


                                             9
relied on the management control review performed by their independent public
accountant as a part of the school’s OMB Circular A-133 Independent Auditor’s Report
on the Schedule of Federal Awards and Other Financial Assistance for the year ending
June 30, 1996.


ADMINISTRATIVE MATTERS

In accordance with the Department’s Audit Resolution Directive, you have been
designated as the action official responsible for the resolution of the findings and
recommendations in this report.

In addition, as required by the Freedom of Information Act (Public Law 90-23), reports
issued to the Department’s grantees and contractors are made available, if requested,
to members of the press and general public to the extent information contained therein
is not subject to exemptions in the Act.

If you have any questions, please call me at (404) 562-6462. Please refer to the above
audit control number in all correspondence relating to this report.


Attachment




                                            10
                               REPORT DISTRIBUTION LIST
                            AUDIT CONTROL NUMBER 04- 80006



Auditee                                                        No. Of Copies
Dr. Thomas Cole                                                      1
President
Clark Atlanta University


Action Official
Greg Woods                                                            1
Chief Operating Officer
Office of Student Financial Assistance


Other OSFA Officials
Campus-Based Loan Programs Section Chief                      Electronic (1)
Director, Atlanta Area Team, OSFA                                     1


Other ED Officials
Office of the General Counsel                                         3
Supervisor, Post Audit Group
  Office of the Chief Financial Office                                1
Office of Public Affairs                                              1
Accounting and Financial Management Service, OPE                      1


ED-OIG Officials
Inspector General                                             Electronic (1)
Acting Deputy Inspector General                               Electronic (1)
Acting Assistant Inspector General for Audit                  Electronic (1)
Assistant Inspector General for Investigations                Electronic (1)
Assistant Inspector General for Operations - Eastern Area     Electronic (1)
Director, Advisory Assistance, Student Financial Assistance   Electronic (1)
Counsel to the Inspector General                              Electronic (1)
Director, PAMS                                                Electronic (1)
Other Area Audit Managers                                     Electronic (1)
                                                                                  ATTACHMENT

                           CLARK ATLANTA UNIVERSITY
Office of Finance and Administration




November 23, 1998

Ms. Carol S. Lynch
Regional Inspector General for Audit
US Department of Education
Office of the Inspector General
61 Forsyth Street, Room 18T7l
Atlanta, Georgia 30303

Re:       ACN: 04-80006

Dear Ms. Lynch:

        We have reviewed the Review of the Federal Perkins Loan Program at Clark Atlanta
University draft report. We include our written comments on the findings and recommendations
herein.

FINDING NO.1                  IMPROVEMENTS ARE NEEDED IN THE OVERALL
                              MANAGEMENT OF THE PERKINS LOAN FUND BY CLARK
                              ATLANTA UNIVERSITY

          We concur with the findings and recommendations.

        The University has carried out several corrective actions designed to remedy the
weaknesses and implement the recommendations described in the finding. Specifically, we have
developed a system and designed policies and procedures to govern advancing funds to students,
transferring funds to the University, making payment of credit balances to students, depositing all
capital contributions into the Perkins Loan Fund Investment Account, and doing more timely
reconciliations. We have attached a copy of our current policies and procedures.

        Beyond the recommendations contained in the draft report, we have taken steps to
improve our cash forecasting procedures. Our new procedures require that we manage all of the
campus-based programs in concert to maximize the use of these funds. We include copies of our
current year's cash forecast for our campus-based programs with this response.

        The combination of written policies and procedures and our improved process for
projecting available resources, has greatly enhanced the audit trail applicable to all Perkins Loan
Fund activity. These improvements ensure that we adequately document transactions and manage
the loan fund according to current regulations.

FINDING NO.2                  STUDENT FILE MAINTENANCE AND PERKINS LOAN
                              PROCEDURES SHOULD BE IMPROVED


                                                12
1.   Files Contained Inadequate Documentation

#    In one instance, a student financial aid file could not be located.

     We concur with this finding and the related recommendation.

     The University has developed and implemented policies and procedures to govern file
     maintenance and retention. Additional personnel and other resources have been devoted to
     improving our compliance in this area. The policies have been approved by management
     and distributed to all appropriate personnel. (See copy of a policy statement attached.)

#    In three instances, the student loans were canceled', however, the school did' not
     maintain copies of the voided promissory note as required by 34 CFR 674. 19(4) (B) (iv).

     We concur with this finding and the related recommendation.

     The University has developed and implemented policies and procedures to govern file
     maintenance and retention. The policies have been approved by management and
     distributed to all appropriate personnel. (See copy of a policy statement attached.)

#    In eight instances, the student financial aid files selected for verification did not contain
     all documents to meet the requirements of 34 CFR 668.56 and 34 CFR 668.57.

     We concur with this finding and the related recommendation.

     The University has adopted a verification policy that meets the requirements of the stated
     regulations. The policies have been approved by management and distributed to all
     appropriate personnel. (See copy of a policy statement attached.)

2.   Over award

#    In five instances, money credited to student accounts exceeded the students' need.

     We concur with this finding and recommendations.




                                               13
3.   Student Eligibility

#    In four instances, students did not maintain satisfactory academic progress as required
     by 34 CFR 668.34 and defined by the school. In addition, students received aid for
     more than the institution's ten semester limit.

     We concur with the finding and recommendations.

     The University has strengthened its procedures to insure that satisfactory academic
     progress standards are followed. Students must formally appeal academic probation before
     any future financial aid can be awarded.

     Our procedures have been modified to prohibit any student from receiving aid for more
     than ten semesters.

4.   Student Ledger Card Procedures

#    In five instances, reconciliations to close out student ledger cards were not performed at
     year end.

     We concur with this finding and recommendations.

     For each year under examination, we reconciled loans awarded to students with loans
     added to the Perkins Loan Fund's loan journal. However, the reconciliations were done
     after year end. We have subsequently revised our procedures to insure that reconciliation
     are done more frequently. Copies of all applicable reconciliations were provided to the
     Office of the Inspector General auditors during their field work.

#    In four instances, loan amounts advanced to students disagreed with the amount on the
     promissory note. Three student ledger card's were credited for less than the amount for
     which the promissory note was signed. One student ledger card was credited for more
     than the amount for which the promissory note was signed.

     We concur with the finding and recommendations. However, we provide additional
     information to support corrective actions taken.

     Student #7

     The loan was initially posted to the student's account on October 20, 1995, in error. The
     finding states that the promissory note lists two advances; however, the ledger card lists
     only one advance. The first advance was removed then reapplied on February 16, 1996,
     after the promissory note was executed. The second disbursement was posted to the
     account May 7, 1996. Please see copy of the student's ledger and promissory note which
     are attached.




                                             14
Student #23

The promissory note lists two disbursements. Initially the student was awarded $500, then
received an award increase of $2,109. We credited $500 for the 1st disbursement on October 24,
1997. An advance in the amount of $500 was credited to the student's account in error on
January 23, 1998, and subsequently corrected on January 26, 1998. An advance of $2,609 was
credited to the student's ledger card on April 17, 1998. The original $500 advance was removed
from the student's account on May 13, 1998. Please see copy of the student's ledger and
promissory note which are attached.

Student #30

The student signed a promissory note for $3,000 applicable to both the 1996/97 academic year
(i.e., $2,000) and the 1997/98 academic year (i.e., $1,000). The 1996/97 award was credited to
the student's account on September 26, 1996 and January 24, 1997 in equal amounts of $1,000.
Please see copy of the student's ledger card attached. The 1997/98 awards were posted to the
student's account on October 8, 1997, and January 23, 1998. For the 1997/98 academic year,
$500 was credited to the student's account in error on February 2, 1998, and subsequently
corrected on April 9, 1998.

A student is required to sign the promissory note only once per academic year, except for
revisions. This applies to the total amount awarded for the academic year. Separate documents
are used to track amounts actually credited to a student's account.

Student #4

The student was awarded $1,354 for the 1995/96 academic term. The awards were to be applied
$700 for Fall 1995 and $654 for Spring 1996. The Fall 1995 advance was posted as $750 on
November 29, 1995 and subsequently corrected on February 1, 1996. The Spring 1996 award
was posted to the student's account on February 1, 1996, without error.

#      In one instance, the promissory note was voided but an adjustment was not made to the
       student ledger card to reflect this action.

Student #16

The required adjustments were made to the student's account on June 30, 1997. Please see copy
of the student's ledger card attached.

#      Jn nine instances~ loans were credited to student accounts prior to the execution of the
       promissory note.

We concur with this finding. Our initial explanation remains unchanged. Documentation to
support the reversal of the loans and their subsequent crediting to students' accounts was
provided to the auditors during their field work.




                                               15
We appreciate the work done by you and your staff in assisting us to improve the overall
management of our Federal Perkins Loan Program. You are requested to incorporate our
responses in the final audit report.

              Very truly yours,


              (Signed)
              Charles C. Teamer, Sr
              Vice President for Finance and Administration & CFO



cc:    Patrick Howard
       Director, Advisory & Assistance for Student
        Financial Assistance Programs
       OIG, Washington, D.C.

Attachments




                                              16
Clark Atlanta University
Perkins Loan Fund Authorization and Disbursement Policies and Procedures
AUTHORIZATION OF AWARDS AND DISBURSEMENTS

Policy:

The University will credit the proceeds of a Perkins Loan Fund award to the individual student's
account after determining his or her eligibility and complying with due diligence requirements.

          The Office of Student Financial Aid will determine that a student is eligible to receive a
          Perkins Fund Loan advance (i.e., the loan) and calculate the amount of the award.

          The Department of Student Loans and Collections will ensure that the student has complied
          with due diligence requirements and will authorize the loan proceeds to be disbursed to the
          student.

Advances to Students:

Funds will be advanced to the student by crediting the student's account through the University's
Student Information System (515.)

          The Department of Student Financial Services will credit the Perkins' loan proceeds to the
          student's account through the 575. Authorization to credit loan proceeds is received from the
          Department of Student Loans and Collections. A report (the Accounts Receivable Code
          Analysis) is produced monthly that identifies the sum of Perkins Loan Fund advances credited
          to students' accounts.

Transfers to Institution:

The Office of Grants and Contracts will review the Accounts Receivable Code Analysis and prepare
a request to have the sum of the advances to students transferred from the Perkins Loan Fund
investment account to the University's operating account. This request is forwarded to the Office of
the Comptroller.

The Office of the Comptroller will transfer the sum of each month's advances to students from the
Perkins Loan Fund investment account when delivered a signed request from the Office of Grants
and Contracts.

Payments to Students:

All financial aid received by the University as agent is credited to the individual student's account. We
will pay amounts credited greater than allowable University charges direct to an authorized recipient
(i.e., student or parent). We will authorize and prepare such payments, if any, through the Office of
the Comptroller. Payments made to an authorized recipient will be debited to the individual student's
account.




                                                   17
Clark Atlanta University
Perkins Loan Fund Authorization and Disbursement Policies and Procedures

FEDERAL AND INSTITUTIONAL CAPITAL CONTRIBUTIONS:

Policy:

We will deposit all capital contributions for the Perkins Loan Program into the Perkins Loan Fund
investment account on or before June 30 of the award year.

Federal Capital Contribution (FCC):

The amount of the FCC is determined by the annual award provided by the US Department of
Education (the Department) for each academic year. The amount of the FCC to be requested will be
determined by the Office of Grants and Contracts. This determination will be based on the total of
advances made to students, administrative cost allowances, allowable transfers to other campus based
programs (i.e., Federal Work Study. and Federal SEOG) and funds available in the Perkins Loan
Fund investment account.

FCC received from the Department will be transferred from the federal cash account to the Perkins
Loan Fund investment account. This amount may be adjusted only for the amount of FCC to be
transferred to other campus based programs. A request to transfer the FCC will be prepared by the
Office of Grants and Contracts and submitted to the Office of tile Comptroller. The Comptroller
will ensure that the request to transfer FCC to the Perkins Loan Fund investment account is processed
promptly. Confirmation of the transfer will be provided by the Comptroller to the Office of Grants
and Contracts.

Institutional Capital Contribution (ICC):

The amount of ICC required to match the FCC will be calculated by the Office of Grants and
Contracts. This calculation will be based on current regulations following procedures outlined in the
Blue Book (Accounting. Recordkeeping. and Reporting by Postsecondary Educational Institutions
for Federallv Funded Student Financial Aid Programs.) A request to transfer the ICC will be
prepared by the Office of Grants and Contracts and submitted to the Office of the Comptroller.
The Comptroller will ensure that the request to transfer ICC to the Perkins Loan Fund investment
account is processed promptly. Confirmation of the transfer will be provided by the Comptroller to
the Office of Grants and Contracts.




                                                 18
Clark Atlanta University
Federal Perkins Loan Student File Maintenance Policies and Procedures

DOCUMENTATION

Policy:

The University currently retains all relevant student records for a minimum of three years.

To Be Implemented

The Debt Management Office will maintain copies of all voided promissory notes for a three year
period.

Practice:

ADVANCES TO STUDENTS I STUDENT LEDGER CARD PROCEDURES

The Debt Management Office will provide the Cashier's Office with a weekly roster of students
who have met all due diligence requirements for award disbursement purposes.

Individual award adjustments will be documented with a loan adjustment form. A copy will be
maintained in the borrower's Perkins file, and the original will be given to the Cashier's Office to
make the adjustment on the student's account.

To Be Implemented

The Debt Management Office will provide the Cashier's Office with the above practice in
writing, and maintain a copy in the Debt Management Policies and Procedures Manual.
Timely reconciliation and adjustments of student ledger cards to the file will be performed.

The Debt Management Office will schedule training workshops to provide insight and instruction
to staff members outside as well as within the Financial Aid Office who impact the Perkins Loan
program.




                                                 19
Clark Atlanta University
Office of Student Financial Aid Verification Policy

The University's verification policy will conform to guidance provided in the applicable federal
regulations. Should the University's policy conflict with that of the federal regulations, the federal
regulations will be followed.

POLICY:

Generally an institution is required to verify all student applications selected for verification.
However, the US Department of Education (ED) does not require a school to verify more than 30
percent of its total number of applicants for federal student assistance. If the total number of
applicants selected for verification is less than 30 percent of total number of applicants for federal
student assistance, the University will verify 100 percent of selected applications.

The University will verify applications equal to 30 percent of the total enrolled applicants that
received federal student assistance. Once this level of verifications has been completed, no additional
applicants need be verified. Applications selected by the University and applications with conflicting
information do not count toward the 30 percent level.

Once the 30 percent level has been reached, all subsequent student files selected for verification will
be appropriately labeled that the file is exempt from verification. All conflicting information will be
resolved regardless of the 30 percent level.

TRACKING:

The University will track the information required to implement this policy using the EDExpress
software system. Each student receiving federal student assistance will be identified within the
EDExpress tracking system. As students' information is entered into the EDExpress system, we will
identify whether he or she has been selected for verification. As students are verified, that information
will be entered into the EDExpress tracking system. Once the total number of students verified is
equal to 30 percent of the total applicants for federal student assistance, no additional students will
be verified. The tracking system will be review during each academic term to ensure continued
compliance and to confirm that the 30 percent level has been maintained.




                                                  20
                          --- NOTICE ---

OTHER ATTACHMENTS NOT SCANNED DUE TO TYPE OF DOCUMENT AND THE
FORMAT. PLEASE REFER TO HARD COPY REPORT FOR FULL TEXT OF CLARK
ATLANTA UNIVERSITY COMMENTS.




                               21
